No. 20–7988
IN THE

SUPREME COURT OF THE UNITED STATES
ROBERT POYSON,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENTS.
CERTIFICATE OF SERVICE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/
CHIEF OF CAPITAL LITIGATION
GINGER JARVIS
ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
(COUNSEL OF RECORD)
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004
GINGER.JARVIS@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (602) 542–4686
ATTORNEYS FOR RESPONDENTS

CERTIFICATE OF SERVICE
Ginger Jarvis, being first duly sworn upon oath, deposes and says:
That she is a member in good standing of the United States Supreme Court
Bar. That on July 12, 2021 she caused to be e-filed and deposited in a FedEx
envelope, shipping pre-paid, original and ten (10) copies of the brief in opposition to
the petition for writ of certiorari of Petitioner Robert Poyson v. State of Arizona,
No. 20–7988 to:
THE HONORABLE SCOTT S. HARRIS
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
And caused to be e-mailed and deposited in a United States Post Office, first-class
postage prepaid, and three (3) additional copies, addressed to:
Natman Schaye
Arizona Capital Representation Project
25 S. Grand Avenue
Tucson, Arizona 85745
natman@azcapitalproject.org
All parties required to be served have been served.

/s/ Ginger Jarvis
GINGER JARVIS
ASSISTANT ATTORNEY GENERAL
(COUNSEL OF RECORD)

2

